Quarte erly Progress and
Oversig ght Repo
               ort on the
                        e Civ
                            vilian
                                 n
Asssistance Proggram
                   m in Pakisstan
As of Sep
        ptemb
            ber 30
                 0, 2011
Foreword 

This is the seventh quarterly progress and oversight report on the U.S. Government’s civilian assistance
program in Pakistan. The U.S. Embassy in Pakistan requested quarterly reporting to inform stakeholders
about progress achieved to date, problems encountered during program implementation, and actions
taken to address them.

This report covers July 1 through September 30, 2011. For fiscal year 2011, Congress appropriated
$1.086 billion authorized by the Enhanced Partnership with Pakistan Act of 2009, along with other
assistance funds, to support the civilian assistance strategy in Pakistan. However, little of the
appropriated funding has been received at the field level. The U.S. Embassy reported that $430.7 million
in fiscal year 2011 civilian assistance funds had been obligated as of September 30, 2011.

The information on program status in this report is based on information provided by the departments
and agencies working in Pakistan—the U.S. Agency for International Development, the Department of
State, the Department of Defense, the Department of Commerce, the Department of Agriculture, and
the U.S. Trade and Development Agency. The information on program oversight comes from audits,
reviews, and investigations performed by the Offices of Inspector General of the U.S. Agency for
International Development, the Department of State, and the Department of Defense, as well as by the
U.S. Government Accountability Office.




____________/s/ ________________
Michael G. Carroll
Acting Inspector General
U.S. Agency for International Development



____________/s/ ________________
The Honorable Harold W. Geisel
Deputy Inspector General
Department of State



____________/s/ ________________
The Honorable Gordon S. Heddell
Inspector General
Department of Defense
Contents 

Executive Summary ........................................................................................................................................................... 1 


Background.......................................................................................................................................................................... 3 


Program Status ................................................................................................................................................................... 5 


    Economic Growth and Agriculture........................................................................................................................... 8 


    Energy ............................................................................................................................................................................ 12 


    Education....................................................................................................................................................................... 14 


    Health ............................................................................................................................................................................. 17 


    Stabilization ................................................................................................................................................................... 20 


    Cross-Cutting: Governance, Gender Equality, and Public Communication and Outreach .....................25 


    Assistance to Pakistani Institutions ......................................................................................................................... 29 


Staffing ................................................................................................................................................................................ 32 


Risks and Mitigation Strategies ..................................................................................................................................... 33 


Oversight Status ............................................................................................................................................................... 37 


    USAID Office of Inspector General........................................................................................................................37 


    Department of State Office of Inspector General .............................................................................................. 41 


    Department of Defense Office of Inspector General ........................................................................................ 41 


    Government Accountability Office ......................................................................................................................... 42 


    Completed Oversight Reports as of September 30, 2011 ................................................................................ 44 


Appendix—–Abbreviations ........................................................................................................................................... 47
 

 
Executive Summary
The Enhanced Partnership with Pakistan Act of 2009, Public Law 111-73 (October 15, 2009) authorizes
democratic, economic, and development assistance to Pakistan up to $1.5 billion per year from fiscal
year (FY) 2010 to FY 2014, for a total of up to $7.5 billion. The U.S. Department of State’s Pakistan
Assistance Strategy Report, issued in December 2009, guides the U.S. Government’s civilian assistance
program in Pakistan, which is designed to build trust and a long-term partnership between the two
countries by strengthening mutual security, stability, and prosperity.

For FY 2011, Congress appropriated $1.086 billion authorized by the Enhanced Partnership with
Pakistan Act of 2009, along with other assistance funds, to support the civilian assistance strategy in
Pakistan. As of September 30, 2011, the U.S. Embassy in Islamabad reported that $430.7 million in
FY 2011 funds had been obligated. However, little of the appropriated funding has been received at the
field level. As stated in the December 2009 report, these funds are intended to address the country’s
most critical infrastructure needs; help the Pakistani Government meet basic needs and provide
improved economic opportunities; and strengthen Pakistan’s capacity to pursue economic and political
reforms that reinforce stability.

The U.S. assistance program was affected by political and security challenges during the reporting period.
In particular, implementation of assistance programs was hindered by stricter Government of Pakistan
requirements for travel outside Islamabad and provincial capitals. Staffing was hampered by the denial of
visas and visa extensions for U.S. Government employees. Despite these challenges, implementation of
assistance programs continued and, in fact, the U.S. Government worked with Pakistan’s National
Disaster Management Authority to extend relief to Pakistani citizens affected by seasonal flooding.

The U.S. Agency for International Development (USAID) continued to implement more programs
through Government of Pakistan institutions, including national and provincial governments and
nongovernmental organizations (NGOs). During FY 2011, USAID made 42 awards totaling about
$439.5 million to governmental and nongovernmental Pakistani institutions; 11 awards totaling $29.5
million were made during the reporting period, July 1 through September 30, 2011. To overcome risks
posed to the civilian assistance strategy and to improve monitoring and oversight of its programs,
USAID continued to conduct preaward assessments of local implementing partners. USAID also began
to conduct broad-based monitoring and evaluation activities.

To protect USAID’s funds against waste and theft, USAID’s Office of Inspector General (OIG) pursued
hotline complaints and conducted investigations and audits. USAID OIG hosted a fraud awareness
briefing for Government of Pakistan auditors and continued to collaborate with USAID/Pakistan on the
Anti-Fraud Hotline. In FY 2011, the hotline received 2,368 complaints related to projects funded by
USAID and other organizations; during the quarter, the hotline received 549 complaints. USAID OIG
initiated a number of investigations based on hotline allegations. USAID OIG also completed a
performance audit of the rehabilitation of community infrastructure in Pakistan’s rural areas. The audit
found that, 2 years after it began, the program had completed only four minor renovations and was far
                                                                                                      1
behind schedule on 350 community infrastructure projects.

The Government Accountability Office (GAO) completed two engagements on U.S. assistance to
Pakistan during the reporting period. In one review, GAO found that relatively little of the $3 billion in
assistance for Pakistan requested by the administration for FY 2012 is subject to the certification by the
Department of State (DOS) of Pakistan’s progress on nonproliferation and counterterrorism issues. In
another engagement, GAO found that more than half of the $1.9 billion in U.S. assistance made available
to build the capabilities of the Pakistani security forces combating violent extremists between FY 2009
and FY 2012 had been obligated or disbursed, and that Pakistani security forces that received the
benefits of these funds were being vetted for human rights violations.  




                                                                                                        2
Background
U.S. civilian assistance to Pakistan is critical to maintaining the long-term strategic partnership that the
U.S. Government forged with the Government of Pakistan and its citizens through the Enhanced
Partnership with Pakistan Act of 2009 (Public Law 111-73, 123 Stat. 2060). The act authorizes
$1.5 billion per year for FYs 2010–14, for a total of $7.5 billion, to support democratic, economic, and
development assistance.

In 2009, DOS developed a strategy for providing civilian assistance to Pakistan.1 The strategy’s
objectives include addressing the country’s most critical infrastructure needs; helping the Pakistani
Government meet basic needs and provide improved economic opportunities, especially in areas most
vulnerable to extremism; and strengthening Pakistan’s capacity to pursue economic and political reforms
that reinforce stability. The strategy initially focused on high-impact, high-visibility infrastructure
programs; provision of humanitarian and social services; and improved governance and security.

In 2011, USAID and DOS refined the strategy to focus assistance on economic growth, particularly in
agriculture, energy, education, health, and stabilization. Programs in these sectors incorporate cross­
cutting themes of good governance, gender equality, and public communication and outreach.

The reporting period, July 1–September 30, 2011, saw the resurgence of seasonal flooding. This year’s
floods affected approximately 5.4 million people and all 23 districts in southernmost Sindh Province.
Many ongoing U.S. Government-funded programs were already working in southern Pakistan and quickly
extended flood relief there. Pakistan’s National Disaster Management Authority (NDMA), which USAID
had strengthened in preparation for this year’s monsoon season, also provided relief.

Security and political concerns also characterized the reporting period. Security concerns led the U.S.
Government to suspend nearly one-third of its annual military aid to Pakistan. In July 2011, the Foreign
Affairs Committee of the U.S. House of Representatives introduced an amendment to the Enhanced
Partnership Act to increase the number of conditions Pakistan must meet if it is to continue to receive
civilian assistance. These conditions include demonstrating measurable progress toward achieving the
objectives of the assistance strategy.2




                                                            
1
    Pakistan Assistance Strategy Report, December 14, 2009. 

2
     Congressional Research Service, “Pakistan: U.S. Foreign Assistance,” July 28, 2011.  


                                                                                                          3
                                               Map
                                                 p of Pakistan
                                                             n




Source: USAID’s Office of Transition Initiatives, Geo
                                                    ographic Inform
                                                                  mation Unit.




                                                                                 4
Program Status 

The U.S. departments and agencies delivering development assistance in Pakistan are implementing
programs in economic growth and agriculture; energy; education; health; stabilization; and the cross­
cutting areas of governance, gender equality, and public communication and outreach. The following
sections provide information on the status of the programs.

The U.S. Embassy reported that as of September 30, 2011, $3.99 billion in funds from FYs 2009, 2010,
and 2011 had been obligated to support the civilian assistance strategy (Table 1). Of this total, the
amount obligated in FY 2011 funds was $430.7 million.

                  Table 1. Program Financial Status as of September 30, 2011
                                   ($ Millions; Unaudited)

                                                            Obligations                   Pipeline
        Program                 Manager
                                              FY 2009   FY 2010    FY 2011      Total     Amount*

Economic Growth and Agriculture
Economic growth†              USAID             172.0      180.2          –      352.2       375.5
International Trade
Administration,
                              DOC                 3.0         –           –        3.0         1.0
Department of Commerce
(DOC)
Commercial Law
                              DOC                 –           –           1.0      1.0         –
Development Program
USAID transfer to the
United Nations’ (U.N.)        U.N.                1.0         –           –        1.0         –
Bhutto Commission
                              U.S.
Foreign Agriculture           Department of
                                                 44.0       51.8          –       95.8        35.0
Programs†                     Agriculture
                              (USDA)
Agriculture†                  USAID              95.0      104.4          –      199.4         –
World Food Programme
(WFP) – Food for Peace
                              USAID              55.4       69.8      56.7       181.9         –
(FFP), Complex
Emergency
WFP – FFP, Floods             USAID               –         27.0      58.4        85.4         –
Humanitarian programs –
Office of Transition
Initiatives, NDMA, Pakistan
                              USAID               –         60.0          –       60.0        10.0
Poverty Alleviation Fund,
Rural Support Programmes
Network
                                                                                                     5
                                                             Obligations                   Pipeline
          Program               Manager
                                               FY 2009   FY 2010    FY 2011      Total     Amount*

Humanitarian assistance†     USAID               209.0      200.2          –       409.2      91.6
Subtotals                                        579.4     693.4      116.1      1,388.9     513.1
Energy
Energy†                      USAID               125.0       98.3          –       223.3       –
                             Department of
Energy programs                                  NA          NA        NA          NA        NA
                             Energy (DOE)
USAID transfer to U.S.
Trade and Development        USTDA                 5.0         –           –         5.0       3.6
Agency (USTDA)†
Subtotals‡                                       130.0      98.3           –      228.3        3.6
Education
Education†                   USAID               183.0      161.4          –       344.4     295.0
                             Public Affairs
                             Section (PAS),
Fulbright                                         19.5       19.5      19.5         58.5      20.0
                             U.S. Embassy
                             Islamabad
Subtotals                                        202.5     180.9       19.5       402.9      315.0
Health
Health/water†                USAID               102.0      171.8          –       273.8     263.8
Health†                      USAID                 –         27.5          –        27.5       –
Subtotals                                        102.0     199.3           –      301.3      263.8
Stabilization
Drug Enforcement
                             DEA                 NA          NA        NA          NA        NA
Administration (DEA)
                             Economic
                             Affairs Section
Biosecurity Engagement                           NA          NA        NA          NA        NA
                             (ECON),
                             U.S. Embassy
U.S. Institute of Peace
                             USIP                NA          NA        NA          NA        NA
(USIP)
                             Department of
Immigration and Customs
                             Homeland              1.1        1.1          1.1       3.3       –
Enforcement
                             Security
                             Narcotics
                             Affairs Section
Counternarcotics†                                  3.0        5.5          –         8.5       7.6
                             (NAS), U.S.
                             Embassy
Federally Administered
Tribal Areas (FATA) roads,   NAS                  15.0         –           –        15.0      11.4
bridges
FATA roads (Swat, Ring
                             NAS                  40.0         –           –        40.0      38.8
Road)

                                                                                                     6
                                                               Obligations                   Pipeline
        Program                 Manager
                                                 FY 2009   FY 2010    FY 2011      Total     Amount*

Border Security (Aviation)   NAS                    37.0       52.0          –        89.0      51.0
Border Security
                             NAS                     1.2         –           –         1.2      11.0
(Commodities, Training)
Police/law enforcement
                             NAS                    54.8      102.6          –       157.4     146.7
training/rule of law†
Demand
                             NAS                     0.5        1.5          –         2.0       2.1
Reduction/Awareness†
Program development
                             NAS                     9.8        4.4          –        14.2       –
support†
                             Regional
                             Security Office
Counterterrorism†                                   11.8       17.0          –        28.8      15.4
                             (RSO), U.S.
                             Embassy
Office of Transition
                             USAID                  68.0       23.4          –        91.4      21.4
Initiatives†
                             Political Affairs
Mine Action – Response
                             Section (POL),          0.5         –           –         0.5       0.2
International
                             U.S. Embassy
Humanitarian programs –
Office of Foreign Disaster
                             USAID                 102.6       18.6          0.3     121.5       –
Assistance (OFDA),
Complex emergency
Humanitarian programs –
OFDA, Earthquake/            USAID                   2.3        0.1          –         2.4       –
Landslide
Humanitarian programs –
                             USAID                   –        115.0      114.2       229.2       –
OFDA, 2010 Floods
Humanitarian programs –
                             USAID                   –           –           0.5       0.5       –
OFDA, 2011 Floods
WFP – FFP, Complex
                             USAID                   –         20.0          4.3      24.3       –
emergency
WFP – FFP, Floods            USAID                   –        116.9       45.0       161.9       –
                             Department of
Mitigating Child Labor                               –          4.0          –         4.0       –
                             Labor
Trafficking in Persons       POL                     0.5        0.8          –         1.3       1.0
Afghan Refugees              POL                    76.8       80.5       71.0       228.3      71.0
Pakistan Internally
                             POL                    59.6       42.0       38.8       140.4      38.8
Displaced Persons
Pakistan Internally
                             POL                     –         49.3          2.7      52.0       2.7
Displaced Persons – Flood
                                                            In-kind
NAS – Flood                  NAS                     –                       –         –         –
                                                            support
                             Department of
Community Stabilization
                             Defense
and Humanitarian                                    10.0         –           –        10.0       9.1
                             (DOD)/
Assistance Fund
                             DOS
Subtotals‡                                         494.5     654.7      277.9      1,427.1     428.2

                                                                                                       7
                                                                  Obligations                       Pipeline
              Program              Manager
                                                FY 2009     FY 2010      FY 2011       Total        Amount*

    Cross-Cutting: Governance, Gender Equality, Public Communication and Outreach
    Democracy Rights Labor       POL                NA            NA         NA           NA           NA
    Democracy – National
    Endowment for                POL                NA            NA         NA           NA           NA
    Democracy
    Democracy/Governance†        USAID               50.0         95.6          –         145.6        118.1
    Federal Bureau of
    Investigation (FBI)/Legal    FBI                  1.0          1.0          1.0         3.0          –
    Attaché Office
    Other exchanges              PAS                  5.0          6.0          –          11.0          –
    Strategic communications     DOD                  7.0          7.0          7.0        21.0          –
    Strategic communications†    PAS                 30.9         17.8          9.2        57.9         28.5
    Strategic communications     USAID                –             –           –           –            –
    USAID transfer to
                                 USAID/OIG            –            2.0          –           2.0          –
    USAID/OIG†
    Public diplomacy operating
                                 PAS                  2.0          2.0          –           4.0          –
    expenses
    Subtotals‡                                       95.9       131.4        17.2        244.5        146.6
    Totals‡                                       1,604.3     1,958.0       430.7      3,993.0      1,670.3

Source: U.S. Embassy Islamabad.
* The Embassy provided pipeline amounts that capture unspent funds for FYs 2002–11. These amounts are not
comparable to FY 2009, 2010, and 2011 obligations or accurate indicators of expenditures for those years.
†The final FY 2011 spending plan has not yet been approved by congressional committees and has not yet been
released for obligation, with the exception of the Fulbright Program and other exchange programs.
‡
 The subtotal and total obligations and pipeline amounts do not capture all assistance programs because data was
not available (NA) for programs managed by DOE, DEA, ECON, USIP, and POL.



Economic Growth and Agriculture
Over the past 3 years, Pakistan has experienced high inflation and relatively low economic growth as
measured by gross domestic product (GDP). Nationally, unemployment exceeds 12 percent, and rates
are higher in urban areas. Small businesses provide the majority of new employment, but they lack
access to finance. Similarly, the agricultural sector, which accounts for 21 percent of GDP and employs
44 percent of the labor force, is constrained by insufficient investment and inappropriate policies.
Furthermore, the agricultural sector uses 95 percent of the country’s surface water, but water use is
inefficient.

The U.S. Government’s economic growth program for Pakistan is designed to stimulate broad-based,
inclusive economic growth, particularly in agriculture, through projects that support policy reform, assist
                                                                                                               8
in workforce development, increase agricultural productivity, and improve water management. USAID,
DOC, and the U.S. Department of Agriculture (USDA) support programs under this category of
assistance.

USAID has 13 programs for economic growth and agriculture, including 3 transfers to other agencies
(Table 2). The programs support trade facilitation, tax policy development, and the development of
provincial irrigation systems. Additionally, USAID plans to begin an agribusiness project next month to
help farmers adopt improved technologies and practices and gain access to financing.

     Table 2. USAID’s Programs to Promote Economic Growth and Agriculture as of 

                           September 30, 2011 (Unaudited) 


                                                                                           Budgeted
                                                  Start                Implementing
     Name                  Description                     End Date                        Amount*
                                                  Date                   Partner
                                                                                             ($)
                    Provides technical
                    assistance on policy
Competitiveness                                                           Ministry of
                    decisions, regulatory         3/06       11/11                          14,437,989
Support Fund                                                               Finance
                    frameworks, and public-
                    private partnerships

                    Assists small and medium-
                    size enterprises in areas
Firms Project       vulnerable to conflict to     5/09       2/13         Chemonics         47,688,726
                    become internationally
                    competitive

                    Improves customs
                    procedures and the
                    Pakistani Commercial
Trade Project                                     6/09       6/13          Deloitte         16,323,820
                    Service to increase exports
                    and trade at the Afghan
                    border



                    Supports women’s                                      Mennonite
Entrepreneurs
                    microenterprises in           6/09       6/14                           15,400,000
Project                                                                   Economic
                    vulnerable areas
                                                                         Development
                                                                          Associates

                    Provides tax, debt, and
Transfer to the
                    banking regulation advisers             To be      U.S. Department
Department of                                     11/10                                      3,000,000
                    to the Government of                  determined     of Treasury
Treasury
                    Pakistan




                                                                                                      9
                                                                                        Budgeted
                                                 Start                Implementing
     Name                Description                     End Date                       Amount*
                                                 Date                   Partner
                                                                                          ($)
Transfer to the
Department of
Commerce          Provides advisers to
                                                           To be      U.S. Department
(Commercial       support gem and mineral        2011                                    3,000,000
                                                         determined    of Commerce
Law               markets
Development
Program)



Gomal Zam         Improves irrigation systems                           Water and
Irrigation        to increase agricultural       9/11       9/14          Power         40,000,000
Project           output                                               Development
                                                                         Authority
                                                                        (WAPDA)

Satpara           Improves irrigation systems
Irrigation        to increase agricultural       1/11       9/14         WAPDA          10,000,000
Project           output



                  Improves milk production                              Dairy Rural
Dairy Project                                    7/11       7/14                         4,000,000
                  and increases sales
                                                                       Development
                                                                        Foundation

Balochistan       Assists Balochistan in                              U.N. Food and
Agriculture       improving livelihoods and      9/10      12/12       Agriculture      10,400,000
Project           food security                                        Organization

                  Provides technical expertise
                  to support the
                  establishment of public-                             International
Grain Storage
                  private partnerships for the   1/11       1/14          Finance        2,500,000
Project
                  management, handling, and                            Corporation
                  storage of strategic grain
                  reserves

                  Improves production and
                  sales of commodities,
                  enhances Government of
Transfer to                                              Renewed      U.S. Department
                  Pakistan research and          2009                                   40,000,000
USDA                                                     annually      of Agriculture
                  extension work, and helps
                  eradicate agricultural
                  diseases

                                                                                                10
                                                                                              Budgeted
                                                     Start                   Implementing
      Name                   Description                        End Date                      Amount*
                                                     Date                      Partner
                                                                                                ($)
                     Strengthens evidence-based                               International
Agriculture          policy analysis for food                                  Food Policy
                                                      7/11         7/15                         5,800,000
Policy Project       security and                                               Research
                     macroeconomic stability                                    Institute


Source: USAID/Pakistan.
* This represents the total amount budgeted using FY 2010 and prior funds.


In response to USAID OIG’s request for information on the progress of these programs, USAID
provided its key performance indicators at the output level, along with results as of September 30, 2011:  

•	 Number of smallholder farmers benefiting from U.S. Government assistance (result: 634,740).

•	 Number of hectares under improved technologies or management practices as a result of U.S.
   Government assistance (result: 6,070).

USAID reported the following examples of progress and success in its portfolio of economic growth and
agricultural programs:

•	 The Trade Project helped facilitate the implementation of the Afghanistan-Pakistan Transit Trade
   Agreement by designing insurance guarantees that cover Pakistan’s customs requirements and
   supporting the Afghanistan-Pakistan bilateral customs meetings held September 28–30, 2011, in
   Karachi. During the meetings, officials from Afghanistan and Pakistan devised ways to facilitate
   transit of Afghan imports through Pakistani territory.

•	 The Entrepreneurs Project supported a local NGO, AHAN, in creating its first retail outlet
   “Handmade by AHAN,” which was inaugurated in Lahore by the U.S. Consul General and Pakistan’s
   Federal Minister for Production. The shop features upscale products and crafts made by local
   artisans. The initiative is expected to generate income for local artisans while stimulating interest in
   traditional handicrafts among high-end consumers.

•	 Mango exports supported by USAID’s Firms Project hit $3.6 million, a 54 percent increase from last
   year. Mangoes are being exported to markets in Europe, the Gulf States, and the United States.

•	 The Firms Project introduced the Balochistan Agriculture Department to the reform movement in
   agricultural marketplaces that is under way in Punjab Province. The reform allows private
   management of marketplaces, reducing a number of restrictive practices of government-managed
   markets.




                                                                                                        11
USAID also reported challenges to implementing its economic growth and agriculture programs. Among
these was that some programs take place in Punjab Province. Not being able to work with the
government there poses a challenge for program coordination.

DOC. DOC programs focus on trade and investment promotion and on developing commercial
law. DOC’s market research program completed four reports covering the automotive and energy
industries. DOC also reported that its seventh and final study on the oil and gas industry is in its final
stages.  

USDA. USDA continues to implement agricultural development programs with funding from USAID.
During the quarter, USDA received a transfer of $19 million and obligated the funds to support USDA’s
new and ongoing projects. USDA’s ongoing programs aim to increase the productivity of wheat and
cotton and control livestock disease. As of September 30, 2011, USDA had signed agreements for four
new agricultural development programs supporting research, watershed management, and aquacultural
productivity.



Energy
Nearly half of the Pakistani population lacks access to modern energy services. Rolling blackouts often
last 10 to 12 hours per day, constraining economic development, disrupting health, education, and other
services. High subsidies, low rates of tariff collection, and distorted prices have discouraged private
companies from building additional capacity. The U.S. Government and other donors are providing
technical assistance to help the Pakistani Government develop appropriate energy pricing, regulatory,
and privatization policies, and assisting in implementing Pakistan’s energy reform plan.

U.S. Government agencies aim to increase electricity generation, decrease transmission losses, and
increase cost recovery by investing in selected energy infrastructure and supporting Pakistani
Government reform efforts with technical assistance and new technology. USAID and the U.S. Trade
and Development Agency (USTDA) support programs in this category of assistance.

USAID has nine energy programs under way. To meet growing energy demands, USAID’s programs
seek to help the Pakistani Government supply hydropower through the completion of the Gomal Zam
and Satpara Dams and the rehabilitation of the Tarbela Dam. USAID is also rehabilitating three thermal
power stations. Table 3 lists USAID’s active programs in this category of assistance. 

         Table 3. USAID’s Energy Programs as of September 30, 2011 (Unaudited)
                                                                                            Budgeted
       Name                  Description           Start     End       Implementing
                                                                                            Amount*
                                                   Date      Date        Partner
                                                                                              ($)
                       Increases hydropower
Gomal Zam Dam
                       capacity and builds         1/11      11/11         WAPDA              40,000,000
Project
                       transmission lines



                                                                                                       12
                                                                                               Budgeted
       Name                     Description              Start   End         Implementing
                                                                                               Amount*
                                                         Date    Date          Partner
                                                                                                 ($)
Satpara Dam               Increases hydropower
                                                         1/11     4/13          WAPDA           19,000,000
Project                   capacity

Tarbela Dam               Rehabilitates a
                                                         4/10     3/12          WAPDA           16,500,000
Project                   hydropower station

                          Rehabilitates a thermal
Jamshoro Project                                         5/10     7/12          WAPDA           18,360,000
                          power station

Muzaffargarh              Rehabilitates a thermal
                                                         5/10     7/12          WAPDA           15,193,000
Project                   power station

                          Repairs and maintains
Guddu Project                                            5/10    11/12          WAPDA           18,068,000
                          thermal power station

                          Improves management
                          capacity, financial systems,
Power Distribution                                                             International
                          billings, and collections of   9/10     9/13                          59,500,000
Project                                                                      Resources Group
                          power distribution
                          companies

                                                                               International
Tube Well                 Improves efficiency of                             Resources Group
                                                         3/09     3/12                          28,500,000
Efficiency Project        irrigation tube wells                               and Khushhali
                                                                                   Bank

                          Provides technical and
                          engineering support to                                 Advanced
Energy Policy             USAID-funded                                          Engineering
                                                         10/08    2/12                          12,379,639
Project                   infrastructure projects                               Associates
                          implemented by the                                   International
                          Government of Pakistan

Source: USAID/Pakistan.
* This represents the total amount budgeted using FY 2010 and prior funds.


USAID provided the following key performance indicator for its energy programs, along with the result
as of September 30, 2011:

•	 Megawatts of energy added as a result of U.S. Government-supported construction and
   rehabilitation efforts (result: 360).




                                                                                                          13
USAID reported the following examples of accomplishments in its portfolio of energy programs:

•	 The six signature energy projects that Secretary Clinton announced in October 2009, involving
   rehabilitation and new construction of hydro and thermal power plants, progressed. USAID has
   received claims for reimbursement worth $57.1 million, of which $57.1 million has been reimbursed
   to the Government of Pakistan since January 2011.

•	 Women working in engineering, customer service, and other departments of the Islamabad Electric
   Supply Company received information technology training as part of the Power Distribution Project.
   The project is helping reform the energy sector by improving the performance of Pakistan’s power
   distribution companies so that they can reduce losses and generate more income. In total, 1,100
   people are being trained.

•	 Workers on the Tube Well Efficiency Project recently celebrated installing the thousandth tube well
   pump. The project is undergoing a design revision to incorporate other possible markets and
   expedite installation.

•	 The Tarbela Dam is now generating an additional 108 megawatts of capacity as a result of assistance
   provided by USAID.

USAID also reported challenges to implementing its energy programs:

•	 USAID is analyzing the implications of the U.S.-Pakistan Energy Dialogue, part of the larger bilateral
   Strategic Dialogue, and evaluating critical issues in the energy sector including governance, financial
   health, electricity rates, market efficiency, private sector participation, civil society and community
   participation, institutional capacity, and the legal and regulatory framework.

•	 The fixed-amount reimbursement agreements for the thermal power plants in Guddu, Muzaffargarh,
   and Jamshoro and the hydropower dams at Tarbela, Gomal Zam, and Satpara need to be amended
   to reflect new completion dates and payment schedules to address immediate funding requirements
   and to enhance project performance. Delays in the acquisition of parts and prolonged contract
   negotiations with subcontractors delayed project implementation.

USTDA. As part of the U.S.-Pakistan Strategic Dialogue, USTDA signed agreements for approximately
$4.5 million in late 2010 to support energy and transportation projects in Pakistan valued at over
$560 million. The energy projects included feasibility studies for generating electricity using wind,
biomass, and solar power, as well as studies for the transmission and distribution of energy. The studies
are being conducted by U.S. companies that are selected by Pakistani grantees.


Education	
Pakistan’s public education system faces multiple challenges, among them quality and access. Nearly a
quarter of Pakistani children aged 7–16 have no formal education, and the country’s rapidly growing

                                                                                                       14
population is expected to require a doubling of the number of primary and secondary schools over the
next 20 years. Less than 5 percent of Pakistanis aged 17–23 have access to higher education.

Goals for U.S. assistance in basic education include repairing and rebuilding schools, ensuring sufficient
resources for the operation and maintenance of schools, increasing parental and community involvement
in schools, reducing teacher absenteeism in vulnerable areas, and establishing common student
performance standards and school report cards. USAID and the U.S. Embassy’s Public Affairs Section
(PAS) support programs for educational improvement.

During the reporting period, USAID had eight education programs under way (Table 4). These
programs focus on improvement in basic and higher education by providing training for teachers,
scholarships for students, and support for reconstruction and renovation of schools. Additionally,
USAID is designing a basic education program for Sindh that will support an early grade reading
program, provide technical assistance, and support the reconstruction of schools.

       Table 4. USAID’s Education Programs as of September 30, 2011 (Unaudited)

                                                                                            Budgeted
     Name                Description         Start                    Implementing
                                                       End Date                             Amount*
                                             Date                       Partner
                                                                                              ($)
                    Provides
U.S.-Pakistan       opportunities for
Science and         science and                                      National
                                                        Renewed
Technology          technology               9/05                    Academy of               12,705,605
                                                        annually
Cooperative         cooperation between                              Sciences
Program             Pakistan and the
                    United States

                                                                     U.S. Department
                    Provides scholarships
                                                                     of State and
                    to Pakistani master’s
Fulbright                                               Renewed      United States
                    degree and PhD           9/04                                            132,000,000
Scholarships                                            annually     Educational
                    students to study at
                                                                     Foundation
                    U.S. universities
                                                                     Pakistan

Higher
Education           Provides budget                                  Higher Education
                    support to the Higher    3/10         2012                                91,000,000
Commission                                                           Commission
                    Education
Support             Commission

                    Supports construction
Women's
                    of a 360-bed women’s                             Forman
Dormitory                                    7/11         8/14                                 7,000,000
                    dormitory at Foreman                             Christian College
Project
                    Christian College




                                                                                                       15
                                                                                            Budgeted
      Name                Description          Start                         Implementing
                                                           End Date                         Amount*
                                               Date                            Partner
                                                                                              ($)
                      Trains primary and
                      middle school                                      American
Links to Learning
                      teachers and              10/07        10/12       Institutes for      89,314,430
Project
                      renovates conflict-                                Research
                      damaged schools

                      Provides interactive
Children's                                                               Rafi Peer
                      teaching and learning
Television                                      5/10          5/14       Theater             14,000,000
                      for children through a
Project                                                                  Workshop
                      television program

Earthquake-
Damaged               Reconstructs
Schools               earthquake-damaged        10/06         4/12       CDM                121,250,980
Reconstruction        schools
Program

Teacher               Provides preservice                                Educational
Education             education for             5/11          9/13       Development         40,000,000
Project               teachers                                           Center


Source: USAID/Pakistan.
* This represents the total amount budgeted using FY 2010 and prior funds.


USAID provided the following key performance indicators for its education programs, along with results
as of September 30, 2011:  

•   Number of schools constructed with U.S. Government support (result: 0).

•   Number of schools rehabilitated with U.S. Government support (result: 160).

USAID reported its termination of the Southern Punjab Basic Education Program following the
announcement by the government of Punjab Province that it will no longer accept U.S. Government
assistance. Subsequently, USAID signed a $19 million agreement with the government of Sindh Province
to support the Sindh Basic Education Program using funds initially intended for the Punjab Basic
Education Program.

PAS. As part of the Mission’s strategic communication efforts, PAS operates one of the largest U.S.
Government-sponsored educational and cultural programs in the world. Exchange programs are
implemented by U.S.-based nonprofit institutions. In Pakistan, the United States Educational Foundation
and the Fulbright Commission are extensively involved in the recruitment and selection of participants
for academic and professional programs. Additionally, outreach and participant recruiting among a wide

                                                                                                       16
variety of Pakistani Government entities, media, educational institutions, and NGOs is conducted
through PAS programs.

Despite challenges in 2011 for Pakistan-U.S. relations, and difficulties obtaining Pakistani visas, the
bilateral exchange programs have received a record number of applications and garnered significant
interest. A new focus on alumni programming has invigorated a Pakistani-led alumni association that
currently has over 8,000 members. PAS is also expanding the in-country English Language Access
Program, an after-school program that teaches English to young adults aged 15–18 and currently
includes over 5,000 Pakistani students. Using Pakistani interlocutors, the program is expanding into
regions that are of strategic interest, including Quetta and other regions of Balochistan, as well as
Khyber Pakhtunkhwa.
 

Health
The quality of basic health services is uneven in Pakistan, with the rural population particularly
underserved. Improving the quality of care is complicated by the country’s growing population and by
the ongoing devolution of health services to the provinces. Pakistan’s high fertility rate is expected to
more than double the population by 2050, further straining the health system. The provinces, which do
not yet have the financial and human resources to assume added health-care responsibilities, are
negotiating with the federal government for adequate funding, skilled staff, and management and
accountability systems at the provincial level.

The United States aims to support the Government of Pakistan in developing the capacity to deliver,
with the assistance of NGOs, high-quality, cost-effective health interventions. Examples include efforts
to increase contraceptive prevalence, reduce fertility rates, reduce infant mortality, and prevent
maternal deaths. USAID contributes to this area of assistance.

USAID has 15 programs under way to support health services (Table 5). These programs focus on
renovation and reconstruction of facilities, family planning, and polio eradication. In addition, USAID will
be supporting a Demographic and Health Survey in Pakistan to collect and compile household
information to inform national health indicators.

         Table 5. USAID’s Health Programs as of September 30, 2011 (Unaudited)

                                                                                             Budgeted
      Name               Description           Start       End        Implementing
                                                                                             Amount*
                                               Date        Date         Partner
                                                                                                ($)
Jacobabad (J) and    Improves municipal       1/11 (J)     2013
                                                                         Winrock
Peshawar (P)         service delivery of                                                       71,596,692
                                              6/10 (P)     2013        International
Water Program        clean water




                                                                                                            17
                                                                                     Budgeted
     Name                Description            Start    End       Implementing
                                                                                     Amount*
                                                Date     Date        Partner
                                                                                        ($)
Jinnah Post-        Reconstructs
Graduate            the obstetrics and
                                                5/10      4/13         CDM             4,059,270
Medical Center      gynecology/fistula
Project             ward

Jacobabad Civil     Renovates Jacobabad
                                                10/10    10/13         CDM            10,049,000
Hospital Project    Hospital

                    Procures
Health Supplies     contraceptives and
                                                4/10      4/15        Various         44,975,765
Project             vaccines for national
                    distribution

                    Provides logistic
                    support with
Health Supplies                                         Renewed
                    contraceptives to the       9/08               John Snow Inc.      5,000,000
Delivery Project                                        annually
                    provincial health
                    ministries

                    Supports the
Family Health                                                        Population
                    diversification of family   6/07      6/12                        48,424,566
Project                                                               Council
                    planning activities

                    Develops and
Health Services     strengthens                                    Pakistan Health
Academy             institutional capacity in   7/08     12/12        Services         7,200,000
Support Project     public health training                            Academy
                    and research

                                                                     Koninklijk
                    Conducts a survey of                           Nederlandsche
Tuberculosis
                    tuberculosis                6/10     12/11       Centrale          4,570,000
Survey Program
                    prevalence                                      Vereeniging
                                                                      (KNCV)

                                                                   United Nations
Polio Vaccination   Conducts annual polio               Renewed
                                                1/03               Children’s Fund     8,500,000
Program             eradication campaigns               annually
                                                                     (UNICEF)

Polio Vaccination   Conducts annual polio               Renewed    World Health
                                                1/03                                   9,000,000
Program             eradication campaigns               annually   Organization




                                                                                                   18
                                                                                             Budgeted
      Name                 Description           Start        End        Implementing
                                                                                             Amount*
                                                 Date         Date         Partner
                                                                                                ($)
                      Renovates flood-
Tuberculosis          affected tuberculosis
Project (flood        facilities and restocks    4/11         12/11      John Snow Inc.        7,378,000
support)              their medicines and
                      equipment

                      Supports the National
                      Nutrition Survey
                      2011, which will
Nutrition             identify links between
                                                                              Aga Khan
Assessment            nutrition and family       4/11         4/12                              588,974
                                                                              University
Project               planning and
                      determine the level of
                      vaccination coverage
                      in Pakistan

                      Assists with the
                      devolution of nearly all
Health Care
                      public health
Management                                       1/11         1/14       John Snow Inc.        5,265,000
                      responsibilities from
Project
                      the federal to
                      provincial ministries

                      Supports
                      reconstruction of the
Karachi               Karachi Warehouse to                                     Winrock
                                                  7/09        7/11                             2,710,000
Warehouse             store immunization                                     International
                      and other medical
                      supplies

Field
Epidemiology                                                               Centers for
                      Provides training to
and Laboratory                                    8/05        12/11      Disease Control       5,683,676
                      epidemiologists
Training                                                                 and Prevention
Program


Source: USAID/Pakistan.
* This represents the total amount budgeted using FY 2010 and prior funds.


USAID provided its key performance indicators for its health programs, along with results as of
September 30, 2011:     

•   Number of health facilities rehabilitated with U.S. Government support (result: 128).

                                                                                                           19
•	 Number of polio immunization campaigns completed (result: 7).

USAID reported the following examples of progress and success in its health programs:

•	 Because of USAID’s ongoing flood programs, the U.S. Government was able to respond to the 2011
   monsoon floods, providing a mobile health unit and medical care to the nine affected districts.

•	 Planning and implementation discussions involving USAID, the Ministry of Health, and provincial
   governments continue to ensure that Pakistani Government priorities are incorporated into all
   health programming.

USAID also reported problems that continue to affect the implementation of its health programs:

•	 With the devolution of federal health programs to the provinces, USAID is facing communication,
   coordination, and planning challenges. Guidance from the Government of Pakistan is insufficient on
   the expected roles and responsibilities of federal, provincial, and district government actors in this
   sector. The Government of Pakistan is developing operating procedures and practices, which differ
   among provinces because of differences in their institutional capacity.

•	 The Government of Punjab announced that it will no longer accept U.S. Government
   assistance. USAID consequently cancelled all government-to-government programs in Punjab
   Province and is working to reprogram the funds originally slated for Punjab.

•	 The Sindh Health and Population Department has not yet formulated a clear vision for investment in
   the health and population sectors, including objectives and the strategic framework for such
   investment. Additionally, the department lacks technical expertise, human and financial resources,
   and adequate procedures for financial accountability and procurement.



Stabilization
The U.S. Government’s stabilization program supports the Government of Pakistan’s efforts in the
Federally Administered Tribal Areas (FATA) and Khyber Pakhtunkhwa through short-term development
activities, some longer term infrastructure investments, and support for incremental improvements in
governance. Stabilization activities are closely aligned with the objectives of the 2010 Post Crisis Needs
Assessment for FATA and Khyber Pakhtunkhwa, which include improving the responsiveness and
effectiveness of the Pakistani Government to restore citizen trust; stimulating employment and
livelihood opportunities; ensuring the delivery of basic services; and countering radicalization and
fostering reconciliation. USAID, the U.S. Embassy’s Narcotics Affairs Section (NAS), and the Regional
Security Office (RSO) support assistance programs in this category.

USAID had 18 programs for stabilization under way during the quarter (Table 6). These programs
provide cash transfers for housing damage, vocational training, and improvements in roads and
electricity generation. In addition, USAID is planning a program that will provide physical, social, and
economic support to civilian victims of conflict.
                                                                                                      20
      Table 6. USAID’s Stabilization Programs as of September 30, 2011 (Unaudited)

                                                                                         Budgeted
     Name                    Description              Start   End     Implementing
                                                                                         Amount*
                                                      Date    Date      Partner
                                                                                            ($)
                    Provides vocational training
                    and apprenticeships,
FATA Livelihoods    establishes market linkages,
                                                      5/08    2/13    CHF                 59,400,000
Program             and undertakes improvements
                    in small-scale infrastructure
                    for farmers

                    Improves roads; water                             FATA
FATA
                    infrastructure; and electricity                   Secretariat and
Infrastructure                                        12/09   12/14                      160,000,000
                    generation, distribution, and                     Frontier Works
Program
                    transmission                                      Organization

                                                                      Creative
                                                                      Associates,
                    Supports conditions for
Pakistan                                                              International,
                    stability and development in
Transition                                            11/07   12/15   Organization for   130,919,945
                    conflict-prone and other
Initiative                                                            Migration,
                    priority areas of Pakistan
                                                                      Internews, and
                                                                      BeFaRE

                                                                      Provincial
Khyber
                    Supports the reconstruction                       Reconstruction,
Pakhtunkhwa
                    and recovery of conflict-         3/10    12/14   Rehabilitation      83,534,400
Reconstruction
                    affected districts                                and Settlement
Program
                                                                      Authority

                    Increases the capacity of
                    FATA Secretariat for
FATA Secretariat    participatory planning,                           Abacus
                                                      9/11    9/16                         5,000,000
Support Project     management, and oversight of                      Consulting
                    stabilization and development
                    activities

Provincial
Reconstruction,     Increases capacity for
Rehabilitation &    management and oversight of
                                                      2/10    1/12    KPMG                 1,527,398
Settlement          stabilization and development
Authority           activities
Capacity Building




                                                                                                  21
                                                                                       Budgeted
     Name                   Description              Start   End     Implementing
                                                                                       Amount*
                                                     Date    Date      Partner
                                                                                          ($)
                   Provides health equipment
                   and mobile health units,
FATA Child                                                           Save the
                   reconstructs health facilities,   9/06    12/12                      26,150,000
Health Project                                                       Children
                   and trains health-care
                   providers

                   Supports monitoring and
Monitoring &
                   verification of USAID                             AGES
Evaluation –                                         4/10    12/11                       3,760,000
                   investments in small-scale                        Consultants
Malakand
                   infrastructure

                   Supports monitoring and
Monitoring &
                   verification of USAID                             Associates in
Evaluation –                                         12/09   12/11                       2,340,000
                   investments in road and                           Development
FATA
                   electricity infrastructure

Radio
Transmitters in    Provides radio transmitters to
FATA & Khyber      FATA and Khyber                   6/10    12/11   Harris IT           8,639,577
Pakhtunkhwa        Pakhtunkhwa
Project

                   Establishes child protection
Child Protection
                   centers and provides support      9/10    9/12    UNICEF              3,538,000
Program
                   for psychological counseling

                                                                     Benazir Income
Benazir Income     Provides cash assistance to
                                                     6/09    6/10    Support Program   160,000,000
Support Program    needy families
                                                                     (BISP)

                                                                     Provincial
                   Provides housing damage
Malakand &                                                           Reconstruction,
                   assistance for Khyber
FATA Housing                                         6/10    6/11    Rehabilitation     65,000,000
                   Pakhtunkhwa and FATA
Support Program                                                      and Settlement
                   through a cash transfer
                                                                     Authority

                                                                     National
Citizens’ Damage                                                     Database and
                   Provides cash assistance to
Compensation                                         6/11    6/12    Registration      190,000,000
                   flood-affected households
Fund                                                                 Authority
                                                                     (NADRA)




                                                                                                22
                                                                                                 Budgeted
      Name                     Description               Start      End      Implementing
                                                                                                 Amount*
                                                         Date       Date       Partner
                                                                                                    ($)
Human
Resources,            Provides capacity-building and
                                                                             International
Logistical & Rapid    procurement of relief supplies
                                                         8/10       12/11    Organization for      5,800,000
Procurement           for flood-affected people on
                                                                             Migration
Support to            behalf of NDMA
NDMA

Monitoring &
Assessment of         Monitors USAID-funded flood
                                                         10/10      11/11    APEX Consulting        192,171
USAID Sindh           assistance activities in Sindh
Flood Relief

Monitoring &
                      Monitors USAID-funded flood
Assessment of                                                                Community
                      assistance activities in           10/10      11/11                           204,284
Balochistan                                                                  Uplift Program
                      Balochistan
Flood Emergency

Monitoring &
Assessment of
                      Monitors USAID-funded flood
USAID of Khyber
                      assistance activities in Punjab    10/10      11/11    Voice Tel Tech         487,518
Pakhtunkhwa and
                      and Khyber Pakhtunkhwa
Punjab Flood
Relief


Source: USAID/Pakistan.
* This represents the total amount budgeted using FY 2010 and prior funds.


USAID reported the following examples of progress and success in its stabilization activities:

•	 USAID’s $62 million in assistance to flood-affected, vulnerable farmers is achieving results in Khyber
   Pakhtunkhwa, Punjab, and Balochistan. In Khyber Pakhtunkhwa, for instance, program beneficiaries
   reported a 75 percent increase in wheat yield (1,750 kilograms per acre, up from 1,000 kilograms in
   the previous year) from the use of inputs provided under the program. The following factors
   contributed to the increase in yield: improved high-quality seed, high-quality fertilizer, timeliness in
   the delivery of USAID inputs, and frequent rains.

•	 Frontier Works Organization (the Pakistan military’s equivalent of the Army Corps of Engineers)
   has completed approximately 90 percent of the 110-kilometer Kaur-Wana road and 94 percent of
   the 105-kilometer Tank-Sararogha road. Only road signage and marking are left to be completed on
   the Tank-Sararogha road.




                                                                                                          23
•	 Of 115 schools planned, 89 are under construction, while bids for constructing an additional
   21 schools are being solicited as part of the Khyber Pakhtunkhwa Reconstruction Program. This
   work will generate over 72,000 days of employment, worth $335,000 to the local economy.

•	 Under the Khyber Pakhtunkhwa Reconstruction Program, USAID and the Government of Pakistan
   signed a program implementation letter for the construction of five basic health units to replace
   units that were destroyed during counterterrorism military operations in the Malakand.

USAID also reported problems that continue to affect the implementation of its stabilization programs:

•	 Security in some vulnerable areas is hindering implementation. However, USAID is working with
   Government of Pakistan officials to resolve security issues.

•	 Designing and implementing agreements with provincial governments have been time-consuming.

•	 The lack of women’s participation in development programs continues to be a challenge.


NAS. As previously reported, NAS, with other U.S. law enforcement agencies in Pakistan, manages five
programs that support improved security and legal institutions.                These programs address
counternarcotics, border security and related infrastructure, law enforcement reform through police
and prosecutor training, and provide support for the Ministry of Interior’s Air Wing. According to NAS,
all of its projects are implemented in partnership with the Government of Pakistan, and its infrastructure
projects use Pakistani contracting mechanisms.

NAS reported the following successes for its current programs:

•	 Number of hours flown by the Air Wing under the aviation program. During the quarter, the Air Wing
   program logged 818 hours. Missions of note included support to the Pakistan Rangers in Sindh
   Province, who were addressing security problems in Karachi following an upsurge in violence, and
   support of the Punjab Rangers and the Pakistan Coast Guard.

•	 Number of kilometers of road constructed and percentage of other infrastructure projects completed under
   the infrastructure program. Construction of counternarcotics roads (3.5 kilometers) is under way in
   the Shalman region of Khyber Agency, as is construction of the Mattani Bypass and Landi Kotal
   Bypass roads. Reconstruction of Peshawar’s Southern Ring Road and construction on the Kanju-
   Madyan road in Swat is in progress. Construction continues on three Swat Valley police stations—
   Mingora, Rahimabad, and Kabul—projected to be finished in December 2011. Construction of a
   joint police training center in Nowshera began in September 2011.  

•	 Number of law enforcement officials trained, number of prosecutors trained. During the reporting period,
   283 law enforcement officials from across Pakistan were trained. Over 135 community police
   officers who will be working in 45 community policing stations in Islamabad were enrolled in the
   Community Policing Program, which provides training and mentoring. Seventy-five prosecutors in
   Khyber Pakhtunkhwa and Sindh Provinces were trained in case preparation and trial advocacy skills,
                                                                                                        24
    legal aspects of combating terrorism, and anti-money-laundering through seminars provided by the
    resident legal advisor and by guest lecturers, all of whom are practicing U.S. federal prosecutors and
    judges.

•	 Amount of equipment delivered under the Civilian Law Enforcement Reform Program. NAS delivered
   $5.6 million worth of equipment and committed an additional $2.2 million worth of equipment.

Compared with previous reporting periods, impediments to implementation of NAS projects were
reduced, according to NAS. For example, harassment by the Pakistani Government of NAS personnel
in Quetta ceased during the quarter, allowing the Air Wing to resume operations. NAS personnel also
worked closely with their Pakistani counterparts to implement programs. However, NAS reported that
the issuance of visas, particularly for contractors providing support to the Air Wing, has continued to be
a problem.

RSO. The RSO at the U.S. Embassy in Islamabad contributes to improving security and legal institutions
through its antiterrorism assistance. The RSO provides a full range of tactical and investigative courses
and support to Pakistani federal and provincial law enforcement agencies, especially those operating in
Khyber Pakhtunkhwa and Balochistan. During the quarter, RSO trained 255 officers, including 75 who
completed tactical training, 38 of whom were from the Provinces of Khyber Pakhtunkhwa and
Balochistan.



Cross-Cutting: Governance, Gender Equality, and Public
Communication and Outreach
The cross-cutting priorities of U.S. Government assistance—improved governance, gender equality, and
increased public communication and outreach—have been included in the discussion of sectoral
assistance programs as appropriate. The U.S. Government also supports programs focused exclusively
on these areas.

USAID has 12 programs designed to improve governance, gender equality, and public communication
(Table 7). USAID’s programs in this category of assistance include a hotline for the public to register
complaints, support to organizations that oppose domestic violence and gender discrimination, and civil
society support. In addition to its ongoing programs, USAID is planning a program to monitor and
observe the upcoming national elections and a municipal services program to improve service delivery at
the provincial level.




                                                                                                       25
Table 7. USAID’s Governance, Gender Equality, and Public Communication and Outreach

                   Programs as of September 30, 2011 (Unaudited) 

                                                                                    Budgeted
       Name              Description         Start   End      Implementing
                                                                                    Amount*
                                             Date    Date       Partner
                                                                                       ($)
                     Supports
Parliamentary
                     construction of the
Services Building                            3/10    12/11       Habib Rafiq         9,300,000
                     Parliamentary
Project
                     Institute

                     Allows citizens to
                     report waste, fraud,
                                                                Transparency
Anti-Fraud Hotline   and abuse of U.S.
                                             1/09    9/15       International-       1,150,000
Project              Government funds
                                                                   Pakistan
                     through a free
                     hotline

                     Conducts three                             International
Political Polling    nationwide public       11/10   1/12    Republican Institute     500,000
                     perception polls                               (IRI)

                     Makes small grants
                     to organizations
Gender Equity
                     opposing domestic       8/10    8/15     Aurat Foundation      14,368,429
Program
                     violence and gender
                     discrimination

                     Makes small awards
                     for community
Small Grants /                                                 National Rural
                     initiatives that        8/10    8/15                           14,000,000
Ambassador's Fund                                             Support Program
                     support U.S. foreign
                     assistance objectives

                     Makes small grants
                                                                 Trust for
                     to civil society
Citizens' Voice                                                 Democratic
                     projects that support   5/11    9/15                           10,000,000
Project                                                        Education and
                     U.S. foreign
                                                               Accountability
                     assistance objectives

                     Improves
                     transparency and
Political Parties                                                 National
                     accountability of
Development                                  7/11    7/15        Democratic          4,500,000
                     Pakistani political
Program                                                        Institute (NDI)
                     parties to their
                     constituents




                                                                                                 26
                                                                                             Budgeted
          Name                 Description          Start     End       Implementing
                                                                                             Amount*
                                                    Date      Date        Partner
                                                                                                ($)
                           Conducts a variety of
                           exchange programs
                           and in-country
                                                                        DOS, Bureau of
Exchanges/Strategic        English language
                                                    7/05      2015      Educational and       9,223,500†
Communications             training which
                                                                        Cultural Affairs
                           support strategic
                           communications
                           objectives

                           Provides missionwide
Independent                support for                                    Management
Monitoring and             monitoring,              6/11      6/16          Sciences          7,000,000
Evaluation Contract        evaluation, and                             International (MSI)
                           PakInfo

                           Provides support for
                           the Office of the
Support to Special
                           Special Envoy of the
UN Envoys to                                        6/09      12/11     U.N. Secretariat      2,030,980
                           Secretary General
Pakistan
                           for Assistance to
                           Pakistan

                           Promotes religious
                           tolerance, peaceful
                           interfaith dialogue,
Transfer to USIP                                    8/11      8/11            USIP            3,000,000
                           and counter-
                           extremist messaging
                           in Pakistan

                           Provides
Capacity Building                                                     American University
                           collaborative capacity
for Human Rights                                    1/09      9/11    Washington College      2,355,347
                           building for human
and Gender                                                                  of Law
                           rights and gender


Source: USAID/Pakistan.
* This represents the total amount budgeted using FY 2010 and prior funds.
†
    Amount includes FY 2011 funds that were released early.


USAID provided examples of progress and success in its governance assistance programs:

•	 The U.S. Ambassador’s Fund has awarded 31 grants totaling nearly $2.7 million to support
   community-driven initiatives throughout Pakistan. This quarter, the fund supported building and
   furnishing two housing units for orphaned children in Quetta, Balochistan.
                                                                                                          27
•	 The Gender Equity Program has to date awarded 37 grants totaling nearly $2.1 million to Pakistani
   NGOs and Pakistani Government organizations to support women in crisis, initiate research and
   devise a national strategy on gender-based violence, conduct awareness campaigns on women’s
   rights, and build the capacity of local groups to provide assistance such as expanded access to legal
   services. This quarter witnessed awards to the University of the Punjab and the University of
   Karachi to support the development of a national information-sharing network among university-
   based gender studies programs. The network will strengthen teaching and research capacities and
   use its e-portal with the National Commission on the Status of Women as a platform for conducting
   applied policy and program research.

•	 On September 29, USAID signed a $5.7 million grant with the World Bank’s Water and Sanitation
   Program. The 5-year award will fund policy development, sustainable water services, capacity
   building for provincial and local utilities, and other technical assistance. The award also will promote
   women’s full participation in the policy dialogue.

•	 USAID has launched a $21.5 million program with NDI and IRI to strengthen Pakistan’s political
   parties. The Political Parties Development Program will enable parties to work more effectively
   with constituents at the local level, and conform to international standards for democratic parties.
   The program includes a strong focus on women’s political participation.

•	 IRI has completed its second round of national polling. The organization presented results to
   Pakistan’s political parties, as well as to Embassy and USAID officials.

USAID also reported challenges to implementing programs for improved governance and gender
equality:

•	 Women’s equal participation in all of Pakistan’s development programs remains a challenge.

•	 Stimulating citizen-government partnerships for improved program planning and implementation is
   necessary yet challenging, because it requires building confidence between and among public and
   private actors.

•	 Working with provincial governments to design and implement government-to-government
   agreements has been a very time-consuming process.

PAS. As part of the Mission’s strategic communication efforts, PAS is expanding the in-country English
Language Access Program. This after-school program teaches English to young adults aged 15–18 and
currently includes over 5,000 Pakistani students. Using Pakistani interlocutors, the program is expanding
into regions that are of strategic interest, including Quetta and other regions of Balochistan as well as
Khyber Pakhtunkhwa.




                                                                                                        28
Assistance to Pakistani Institutions
To ensure greater Pakistani responsiveness and increase the sustainability of civilian programs, the
United States plans to implement more programs through Government of Pakistan institutions, including
national and provincial governments and NGOs.3 The purpose of this shift is to:

•	 Align programs with locally identified priorities.
•	 Build Pakistanis’ sense of ownership of programs.
•	 Build Pakistani institutional and leadership capacity for better fiscal management.
•	 Promote decentralization to more actively engage provincial and local partners and beneficiaries.
•	 Deliver on-budget assistance4 to promote transparency, harmonization, and better budget planning
   by the Government of Pakistan.
•	 Reduce costs.

USAID made 61 awards totaling nearly $1.27 billion during FY 2010. During FY 2011, it made an
additional 42 awards totaling nearly $439.5 million to Pakistani institutions (Table 8). USAID reported
making 11 awards totaling approximately $29.5 million during the reporting period. Awards made by
USAID fall into one of the following four categories: budget support (cash transfers), direct funding for
federal government projects, direct funding for provincial government projects, and awards to Pakistani
NGOs.

Prior to disbursing funds, USAID’s Office of Financial Management performs preaward assessments of all
prospective partner organizations. The assessments examine organizational and management structure,
accounting, financial management systems, internal controls, technical capabilities, and quality assurance
capabilities, as well as organizations’ policies, procedures, and practices for effective and efficient
management of USAID/Pakistan resources. To date, USAID has completed 114 preaward assessments.
Five assessments were completed this quarter:

•	     Auditor General of Pakistan, completed July 13, 2011
•	     Abacus Consulting Technology Pvt. Limited, completed August 15, 2011
•	     A. A. Associates, completed September 23, 2011
•	     Halcrow Pakistan Pvt. Limited, completed September 26, 2011
•	     National Development Consultants Pvt. Limited, completed September 28, 2011

                                                            
3
    The Enhanced Partnership with Pakistan Act of 2009 encourages the use of Pakistani firms and NGOs, as
appropriate, to implement the democratic, economic, and development assistance programs authorized under Title I
of the act (Section 101(c)(3)).
4
  Delivering U.S. assistance through Pakistan’s own budgetary, spending, and accounting systems as much as possible
will help the Government of Pakistan meet the fiscal targets required by the International Monetary Fund and raise
Pakistanis’ awareness of where U.S. funds are going and how they harmonize with resources from the Government of
Pakistan and other donors. On-budget assistance should also help reduce disruptions in implementation by enabling
federal and provincial governments to improve budget planning and cash-flow management.
                                                                                                                29
 Table 8. Assistance to Pakistani Institutions Since October 1, 2010 (Unaudited)
                                                                                Number of   Value ($) of
Implementing Partner, Project
                                                                                 Awards     Obligations
Budget Support* (Cash Transfers)                                                    1       190,000,000
NADRA, Citizens’ Damage Compensation Program                                        1        190,000,000
Direct Funding for Federal Government Projects                                     12       148,814,803
FATA Secretariat, Tank-Kaur and Kaur-Jandola Road                                   1          5,124,925
FATA Secretariat, Wana Grid station upgrade                                         2          5,800,000
FATA Secretariat, Kaur-Gomal-Tanai-Wana Road                                        1         42,006,820
FATA Secretariat, Reactivation and rehabilitation of damaged transformers           1          8,800,000
FATA Secretariat, Widening and improvement of FATA roads                            1          8,856,631
Higher Education Commission, Merit and Needs-based Scholarship Program              1          1,500,000
Ministry of Finance and Revenue, Competitiveness Support Fund                       1          1,250,000
Provincial Reconstruction, Rehabilitation and Settlement Authority, Khyber
                                                                                    2          9,476,427
Pakhtunkhwa Reconstruction Program
WAPDA, Gomal Zam Dam and Irrigation                                                 1         40,000,000
WAPDA, Satpara Dam and Irrigation                                                   1         26,000,000
Direct Funding for Provincial Government Projects                                   1        19,000,000
                                                                 †
Sindh Department of Education, Sindh Basic Education Program                        1         19,000,000
Awards to Pakistani NGOs                                                           28        81,712,915
                                                           †
Abacus Consulting, Capacity Building of FATA Secretariat                            1          3,217,870
                                                  †
Aga Khan University, National Nutrition Survey                                      1            588,974
                                                                         †
Apex Consulting, Monitoring and assessment of flood response in Sindh               1            103,083
Apex Consulting, Monitoring and assessment of flood response in Sindh
                                                                                    1             89,088
(follow-on)
Associates in Development, Assessment and Strengthening Program                     1          1,642,550
Aurat Foundation, Gender Equity Program                                             1         14,368,428
Community Uplift Program, Monitoring and assessment of flood response in
                                                                                    1            102,816
Balochistan†
Community Uplift Program, Monitoring and assessment of flood response in
                                                                                    1            101,468
Balochistan (follow-on)
Dairy and Rural Development Foundation, Dairy Project                               1          2,500,000
                                                          †
FINCON, Information collection for Agribusiness Project                             1            199,472
                                              †
Foreman Christian College, Women’s Hostel                                           1          6,000,000
Habib-Rafiq (Pvt.) Ltd./ CDM Constructors, Inc., Parliament Services Building
                                                                                    1            903,139
Project
Halcrow, Architect & Engineering Services†                                          1             30,000
Key Chain Films, Production of videos on development activities                     1             50,000
Khushhali Bank, Energy Efficiency Project                                           1         13,624,581
KPMG Taseer Hadi & Co., Provincial Reconstruction, Rehabilitation and               1          1,527,398

                                                                                                       30
                                                                                  Number of       Value ($) of
    Implementing Partner, Project
                                                                                   Awards         Obligations
    Settlement Authority Secretariat Support Project
    Lahore University of Management Sciences, Assessment and Strengthening
                                                                                        1             3,856,775
    Program
    National Rural Support Program, Small Grants and Ambassador’s Fund                  1             5,000,000
    NESPAK, Architectural and engineering services†                                     1                30,000
    Rural Support Programmes Network, Assessment and Strengthening
                                                                                        1             4,100,675
    Program
    Rural Support Programmes Network, Agriculture Recovery Program                      1            15,000,000
    Transparency International, Anticorruption Program                                  1                40,000
    Trust for Democratic Education & Accountability, Election Support Project           1             8,000,000
    Voice Tel Tech, Monitoring and assessment of cash transfers                         1               149,080
    Voice Tel Tech, Monitoring and assessment of flood response in Punjab†              1               101,489
    Voice Tel Tech, Monitoring and assessment of flood response in Punjab
                                                                                        1               142,270
    (follow-on)
    Voice Tel Tech, Monitoring and assessment in Khyber Pakhtunkhwa†                    1               101,489
    Voice Tel Tech, Monitoring and assessment in Khyber Pakhtunkhwa
                                                                                        1               142,270
    (follow-on)
    Total                                                                              42         439,527,718

Source: USAID/Pakistan.
* For budget support, U.S. assistance funds are comingled with other budgetary resources available to the Pakistani
Government. For project assistance, U.S. funds are normally segregated in separate bank accounts, and the
Pakistani Government is required to keep books and records that show how assistance funds are spent.
†   Awards made to Pakistani institutions during the reporting period, July to September 2011.




                                                                                                                31
Staffing
The U.S. Mission in Pakistan—including USAID and Embassy components5—increased staffing levels at
the regional office in Lahore, maintained its staffing level at the regional office in Peshawar, but
experienced a decrease in staffing in Islamabad and Karachi.

As shown in Table 9, USAID reported a total of 220 staff (48 U.S. direct-hires and 172 others) as of
September 30, 2011. Since the last quarterly report, the mission’s staff has decreased by six members
because of transfers and summer rotations. Also, delays in construction at the Embassy compound in
Islamabad prevented USAID from accommodating additional staff. However, with an FY 2011 target of
296 staff, USAID/Pakistan remains understaffed by 76 positions. According to the Pakistan Assistance
Strategy Report, USAID, as the lead and largest manager of assistance funds among U.S. Government
agencies, will need to increase its project management, legal, financial management, and procurement
staff significantly.

                              Table 9. USAID Staffing in Pakistan as of September 30, 2011


                                                                                                         Difference from
                Category                          Islamabad        Peshawar   Lahore   Karachi   Total
                                                                                                          June 30, 2011

    U.S. direct hire                                       41          3        3         1        48           -2
    U.S. staff from other
    departments and                                            0       0        0         0         0            0
    agencies
    U.S. personal services                                 15          4        1         0        20           -1
    contractors

    Third-country nationals                                    7       1        0         0         8            0

    Foreign Service Nationals
                                                           99         23        10        5       137          +3
    (Pakistani staff)

    Eligible family members                                    5       0        0         0         5           -1
    Long-term temporary-                                       2       0        0         0         2           -5
    duty staff*
    Total Staff                                          169          31        14        6       220           -6
    Staff Target 2011                                                                             296
    Staff Shortfall                                                                                76

    * USAID/Pakistan reported that long-term temporary-duty staff (defined as being in Pakistan for a year) filling
    vacant positions counted toward the total number of USAID/Pakistan positions.


                                                            
5
    PAS reported that it had 22 U.S. direct hires and 54 Pakistani staff on board as of September 30, 2011.
                                                                                                                       32
Risks and Mitigation Strategies 

U.S. Government agencies and oversight entities identified risks that could jeopardize the U.S.
Government’s assistance program in Pakistan and identified accompanying mitigation strategies. The
following previously identified challenges facing the civilian assistance program remained pertinent during
this quarter:

•	 Political risks. Pakistan continued to experience political, economic, and security-related turmoil.
   Such turmoil can limit the progress by the Government of Pakistan and the U.S. Government in
   delivering an effective assistance program.

•	 Operating restrictions. Implementation and monitoring of USAID projects have been hindered by
   stricter Government of Pakistan requirements for travel outside of Islamabad and provincial
   capitals. Visits to some areas require several days’ prior notification and sometimes the approval of
   the Ministry of Foreign Affairs; these restrictions delay and often lead to the cancellation of site
   visits. Staffing has also been hampered by denial of and delay in issuing visas and visa extensions for
   U.S. Government employees, as well as by issuance of limited-term visas. Further, USAID personnel
   have been harassed by local authorities.

•	 Resistance to economic reform. Entrenched interests may resist policy reforms needed to transform
   the economy. According to USAID, if Pakistan does not implement fundamental reforms, assistance
   from the United States and other donors will have limited long-term effects.

•	 Vulnerability to natural disasters. Flooding and the resulting damage have delayed implementation of
   projects in flood-affected areas. Because Pakistan is prone to natural disasters such as flooding, this
   is a regular risk. To help Pakistan address this risk, USAID supports programs in water storage and
   management, including the surface water management program for Balochistan and Gomal Zam
   Dam, which contribute to flood mitigation efforts. USAID also has ongoing efforts to strengthen
   the capacity of NDMA in both disaster response and disaster risk reduction.
 
•	 Adverse environmental impact. USAID/Pakistan conducts environmental assessments before disbursing
   funds for projects. These assessments—for example, of the road from Tank to Wana and Kaur to
   Makeen in South Waziristan—sometimes identify concerns and potential risks regarding the
   projects’ impact on the environment or communities. To address these environmental concerns,
   USAID will identify and take the necessary steps to ensure these risks can be mitigated before
   continuing the activity.

•	 Leadership turnover. Turnover is high in entities of the Government of Pakistan affecting planning,
   coordination, and implementation of programs. In addition, the devolution of federal health
   programs to provinces with insufficient guidance on the expected roles and responsibilities of the
                                                                                                   33
     federal, provincial, and district governments, is also impeding implementation. USAID will continue
     to work closely with all government counterparts as necessary.

•	 Limited institutional capacity. In FATA, Khyber Pakhtunkhwa, and Balochistan, where there is limited
   institutional capacity and insufficient staff with experience in financial management, extra efforts
   must be made to mitigate the risk of resources being lost through inefficiency, theft, or general lack
   of capacity to handle large amounts of funding.

•	 Inadequate financial management in Government of Pakistan institutions. The U.S. Government and the
   Government of Pakistan have collaborated to introduce special accounts for U.S. budget support
   assistance to address financial challenges and to maintain a high degree of accountability. However,
   financial management, accountability, and reporting challenges continue.

•	 Security risks. Security concerns continue to reduce the ability of U.S. Government personnel to
   conduct direct monitoring and evaluation in conflict-affected areas, particularly Peshawar, FATA, and
   Khyber Pakhtunkhwa, and to engage Pakistani officials in project design.

As described above, security is an ongoing challenge that limits the ability of civilians to provide
assistance in certain vulnerable areas, as well as USAID’s ability to monitor and evaluate programs.
USAID is meeting the challenge by expanding its regional office in Lahore and its use of Pakistani firms to
conduct site visits. In addition, USAID/Pakistan awarded a missionwide, independent monitoring and
evaluation contract to MSI in June 2011. Services provided under the contract include routine
monitoring, training on data entry for project performance, mapping using a geographic information
system, and conducting evaluations and assessments. MSI is verifying the integrity of the data provided by
USAID/Pakistan’s implementing partners, which serve as the basis for annual performance
reporting. Additionally, USAID’s Office of Afghanistan and Pakistan Affairs is developing a database
(PakInfo) that will include not only the indicators that the mission uses to measure the progress of its
programs, but also all the indicators that each implementing partner uses to track progress.

To mitigate the fiduciary risk of working with local institutions, USAID has hired accounting firms to
conduct preaward assessments to ensure that potential recipients of USAID assistance meet U.S.
transparency and accountability standards. These assessments identify partner weaknesses and areas of
improvement that are documented in a Risk Management Framework. USAID then actively works with
partners to build the requisite capacity to mitigate potential risks. In addition, USAID has begun to rely
increasingly on fixed-amount reimbursable agreements as a mechanism for assistance programs
implemented through Pakistani institutions. This mechanism requires progress to be achieved before
funding is released to the implementer.

In addition to these USAID strategies, the OIGs for USAID and DOS have taken the following steps to
ensure that U.S. Government funds are protected against waste and theft:

•	   Establishing field offices in Pakistan for the USAID and DOS OIGs. As of September 30, 2011, USAID
     OIG had 14 permanent staff in Islamabad (9 U.S. direct hires and 5 Foreign Service National


                                                                                                        34
       employees), supplemented by staff on temporary duty. To support its Pakistan portfolio, DOS OIG
       established its field office at the U.S. Embassy in Islamabad last October.

•	 Expanding the use of independent Pakistani public accounting firms to conduct financial audits of funds
   provided to Pakistani NGOs. As of September 30, 2011, USAID OIG had a roster of 27 eligible audit
   firms in Pakistan to call on. Since the passage of the Enhanced Partnership with Pakistan Act on
   October 15, 2009, USAID OIG has nearly doubled the size of this roster.

•	 Providing training to Pakistani public accounting firms and to the Office of the Auditor General. The training
   covers standards and requirements for financial audits of U.S. Government funds. As of
   September 30, 2011, USAID OIG had provided training to 21 public accounting firms (42
   participants) and 16 NGOs (31 participants)—totaling 73 participants in FY 2011. Additionally, this
   quarter, USAID OIG provided training to 15 auditors from the Office of the Auditor General and 3
   financial analysts from USAID/Pakistan.

•	 Providing training to USAID’s contracting and agreement officers’ technical representatives and financial
   analysts. The training covers the standards and requirements for financial audits of U.S. Government
   funds. As of September 30, 2011, USAID OIG had provided four training seminars to 52 staff
   members working at USAID/Pakistan. USAID OIG also trained 26 staff from ten provincial
   government ministries in FY 2011.

•	 Helping the Office of the Auditor General conduct financial audits. USAID OIG helps the office conduct
   financial audits of funds provided by USAID/Pakistan to Pakistani Government entities by reviewing
   the statement of work between the mission and the Office of the Auditor General for each audit
   conducted and approving the final reports to ensure that the audits were performed in accordance
   with government auditing standards. USAID OIG meets periodically with the Auditor General to
   review the status of ongoing audits.

•	 Working with Pakistan’s National Accountability Bureau (NAB).6 USAID OIG established a working
   relationship with NAB in early 2010 and continues to coordinate efforts and collaborate on
   investigations.

•	 Collaborating with USAID/Pakistan to establish the Anti-Fraud Hotline in Pakistan. As the only one of its
   kind in Pakistan, the hotline provides a unique and useful tool for Pakistani citizens to provide
   feedback to USAID, its implementing partners, and the Government of Pakistan. This quarter, the
   hotline received 549 complaints through various channels—e-mail, Internet, facsimile, mail, and in
   person. These complaints relate to projects funded by USAID and by other organizations, including
   the Pakistani Government, bilateral donors, and international organizations.




                                                            
6
 NAB is the primary law enforcement agency in Pakistan responsible for investigating white-collar crime and public
corruption, and it is Pakistan’s only law enforcement agency authorized to conduct investigations in FATA.
                                                                                                               35
•	 Providing fraud awareness briefings and expanding investigatory coverage. During the reporting period,
   OIG special agents in Pakistan gave one fraud awareness briefing attended by 16 Government of
   Pakistan auditors.

•	 Coordinating audits and investigations with other U.S. agencies. USAID OIG works with other OIGs,
   GAO, and law enforcement agencies including the FBI’s International Corruption Unit, the National
   Procurement Task Force, the Financial Crimes Enforcement Network, and the U.S. Embassy’s Legal
   Attaché Office.




                                                                                                      36
Oversight Status
USAID Office of Inspector General

USAID OIG oversees foreign assistance programs administered by USAID, the United States African
Development Foundation, the Inter-American Foundation, and the Millennium Challenge Corporation.
USAID OIG has strengthened its focus on Pakistan since USAID reopened its Pakistan mission in 2002.
In recent years, OIG has covered a wide array of USAID programs in Pakistan, for relief and
stabilization, reconstruction, sustainable development, education, and health care. USAID OIG’s
oversight activities include performance audits, financial audits, and investigations.

Work Completed

From July 1 through September 30, 2011, USAID OIG completed one performance audit and one
financial audit:

•	 Audit of USAID/Pakistan’s Community Rehabilitation Infrastructure Support Program
   (Audit Report No. G-391-11-006-P, August 29, 2011). The audit determined that
   USAID/Pakistan had made little progress constructing and renovating community infrastructure in
   Pakistan’s rural areas to improve the delivery of basic human services, or in promoting economic
   growth. Two years after it began, the program had completed only four minor renovations of
   universities and six career centers. Other completed activities included: two design projects, two
   feasibility studies, and the procurement of furniture and equipment for a children’s health institute.
   The program was far behind schedule on 350 community infrastructure projects. The audit made
   ten recommendations to improve the program.

    Following issuance of the report, USAID stated that it had addressed all ten recommendations
    provided by OIG; based on the recommendations, USAID will terminate this project in April 2012.

•	 Audit of USAID/Pakistan’s Fiscal Year 2011 Consolidated Financial Statements. This
    audit is part of the worldwide audit of USAID’s consolidated financial statements. At the end of the
    testing, OIG/Pakistan submitted to OIG/Washington a summary memo of the procedures
    performed and the results obtained; consequently, USAID OIG did not issue a formal audit report.
    The audit did not identify any material issues during the testing phase, but made five suggestions to
    improve operations.

Work Under Way

As of September 30, 2011, USAID OIG had four performance audits and five financial audits in process:

•	 Audit of USAID/Pakistan’s Firms Project. This audit will determine whether the project is
   achieving its main goal: to expand economic opportunities through sales and employment.

                                                                                                      37
•	 Audit of USAID/Pakistan’s Energy Efficiency and Capacity Program. This audit will
   determine whether the program is achieving its goal of improving energy availability, affordability,
   conservation, and efficiency to sustain Pakistan’s economic growth.

 •	 Audit of USAID/Pakistan Transition Initiative Program Implemented by Creative
    Associates International, Inc. This audit will determine whether the program has identified
    basic community needs and implemented small-scale projects that support the Government of
    Pakistan’s efforts to improve relations with citizens living in areas suffering from instability and
    extremism.

•	 Audit of USAID/Pakistan’s Pre-Service Teacher Education Program. This audit will
   determine whether the program is improving basic education through improved teacher education.

•	 Financial Audit of USAID Funds Managed by the Ministry of Finance, Government of
   Pakistan, for the Education, Health, and Clean Drinking Water Budget Lines, for the
   Period June 15, 2007, to June 30, 2008, and for the Government of Pakistan Rural
   Landless Compensation Policy Budget Line, for the Period June 15, 2007, to
   December 31, 2009.

•	 Financial Audit of USAID Funds Managed by the Ministry of Economic Affairs and
   Statistics (Economic Affairs Division) Under the Cash Transfer Grant Agreement for
   Internally Displaced Persons, for the Period July 1, 2009, to June 30, 2010.

•	 Financial Audit of USAID Funds Managed by the Higher Education Commission Under
   the Merit and Needs-Based Scholarship Project, for the Period July 2, 2004, to
   June 30, 2011.

•	 Financial Audit of USAID Funds Managed by the Ministry of Economic Affairs and
   Statistics (Economics Affairs Division) Under the Cash Transfer Grant Agreement for
   the Benazir Income Support Program, for the Period July 1, 2009, to June 30, 2010.

•	 Financial Audit of USAID Funds Managed by the Pakistan Higher Education
   Commission for the Ministry of Economic Affairs and Statistics Under the Cash
   Transfer Agreement, for the Period September 30, 2009, to June 30, 2010.

Investigative Work and the Anti-Fraud Hotline

As of September 30, 2011, USAID OIG had significant investigative work to report. USAID OIG closed
4 investigations during the reporting period and had 19 open cases. In addition, hotline calls led to
investigations that resulted in terminations, numerous referrals, and allegations of violations of Pakistan’s
public procurement rules. The following are significant investigative case developments:

•	 Guilty Pleas of Four Pakistanis in Kickback Scheme Related to USAID Project in the
   Federally Administered Tribal Areas. In July 2011, the Director General of the Pakistan
   National Accountability Bureau (NAB), Khyber Pakhtunkhwa office, announced that four men had
   entered voluntary pleas admitting guilt for their roles in a bid-rigging scheme related to the USAID­

                                                                                                          38
       funded Federally Administered Tribal Areas Livelihood Development Program. The goal of the
       program, implemented under a $150 million cooperative agreement with the Academy for
       Educational Development (AED) was to provide social and economic stabilization in FATA. The
       agreement was terminated for cause by USAID in June 2010 after an ongoing investigation by OIG
       and the Federal Bureau of Investigation revealed indications of widespread fraud. Under Article
       25(A) of the NAB Ordinance (1999), the four men returned 12 million rupees (approximately
       $140,000) as part of their agreement. The recovered funds will be returned to USAID.

•	 Civil Settlement Related to Fraud in USAID-Funded Programs in Afghanistan and
   Pakistan. In June 2011, AED7 agreed to settle allegations that it had submitted false claims to
   USAID in connection with two cooperative agreements in Afghanistan and Pakistan. Although
   certain terms of the settlement with the Department of Justice are contingent on future events,
   AED has already paid $5,635,000 toward these claims and could pay up to an additional $10 million
   over the next 3 years. In the settlement agreement, the government alleged that AED failed to
   comply with regulations concerning competition in procurements and with contract specifications
   and failed to supervise its subcontractors. The government further alleged that AED failed to
   inform USAID that it had discovered defects in its internal control system and that certain AED
   subcontractors may have been involved in corruption and wrongful activities.

•	 Personnel Terminations Related to Corruption in Pakistan Disaster Relief Projects.
   During the spring and summer of 2011, the USAID OIG Pakistan Anti-Fraud Hotline received over
   200 complaints regarding problems with service delivery and criminal misconduct by employees of
   the Sindh Rural Support Organization (SRSO). SRSO is a recipient of subcontracts from USAID
   implementing partners carrying out flood relief efforts for USAID/Pakistan, for USAID’s Office of
   Foreign Disaster Assistance, and for USAID’s Food for Peace Program. To date, the OIG
   investigation has revealed significant problems with controls over the distribution of cash, food, and
   other relief goods to undesignated areas. As a result of the investigation, SRSO has terminated 21
   employees.

As described above, the hotline provides a unique and useful tool for the people of Pakistan to provide
feedback to USAID, its implementing partners, and the Pakistani Government. Since its introduction in
February 2011, the hotline has been widely advertised. As a result, in FY 2011 it has received 2,368
complaints about the delivery of flood relief services and requests for humanitarian assistance.

This quarter the hotline received 549 complaints through various channels. These complaints related to
projects funded by USAID and implemented by NGOs, international organizations, and the Government
of Pakistan. The breakdown of complaints received this quarter by province or area is as follows: Sindh
431 (79 percent), Punjab 59 (11 percent), and Khyber Pakhtunkhwa 30 (5 percent), Balochistan 12


                                                            
7
   On June 8, 2011, the nonprofit organization Family Health International purchased all assets and programs
belonging to AED.

 


                                                                                                         39
(2 percent), Azad Kashmir 10 (2 percent), and other areas 1 percent or less. The following figure shows
the breakdown of complaints by type.


                                    Types of Complaints
                                                                      Solicitation of Bribe,
                                    4%                                Kickbacks, or Payments
                                             21%
                                                                      Theft of goods

                                                         3%
                                                                      Procurement Fraud

                                                   13%
                                                                      Problem With Service
                           59%
                                                                      Delivery
                                                                      Other




Also during the quarter, USAID OIG and hotline personnel streamlined the process of referring
complaints about service delivery to USAID implementing partners. Of the complaints received, 184
were referred to another agency, as follows:

•   Benazir Income Support Program—68 referrals
•   WFP—29 referrals
•   Rural Support Programmes Network—82 referrals
•   NGOs not funded by USAID—5 referrals

The $174 million USAID-funded Benazir Income Support Program (BISP) provides assistance to Pakistani
women and families in need. All hotline complaints regarding this Government of Pakistan program are
forwarded to BISP. USAID OIG plans to follow up with BISP quarterly to determine the outcome of the
complaints. The majority of the complaints received regarding BISP this quarter related to eligibility or
recipients and service delivery.  

USAID OIG has also developed a close working relationship with WFP in Pakistan, which has made it
possible to investigate allegations of fraud and corruption in USAID-funded flood relief efforts. Referrals
to WFP related to service delivery have resulted in improved targeting and distribution of food.

While the vast majority of the complaints related to the delivery of flood relief, numerous complaints
provided important information for ongoing investigations or resulted in the initiation of inquiries into
other matters, such as alleged violations of the Pakistan Public Procurement Rules of 2004. USAID OIG
works closely with hotline personnel to monitor and address such complaints concerning the tendering
of USAID-funded projects carried out by the Government of Pakistan.




                                                                                                        40
During the quarter, the hotline received and addressed complaints of procurement rule violations
regarding projects being carried out by Government of Pakistan entities funded under agreements with
USAID totaling $50.1 million. The projects are rehabilitating power stations in Muzaffargarh, Jamshoro,
and Tarbela. Some complainants alleged that tenders by the government-owned power companies
running two of the stations violated the procurement rules. The tenders, which were for a fuel additive,
required the use of a particular type of additive, giving its vendor an unfair advantage. Other allegations
included cancelling a tender without giving bidders the required notice, not complying with procurement
rules in selecting vendors, and not making documents available for public review. Acting on this
information, hotline personnel lodged complaints under Pakistan’s procurement rules; as a result, three
tenders were cancelled, and two are pending.

Department of State Office of Inspector General

Work Under Way
As of September 30, 2011, DOS OIG had one audit and three evaluations under way:

•	 Audit of the U.S. Mission in Pakistan’s Local Guard Force Contract. The audit will
   evaluate the Department of State’s contract with the security contractor, G4S, to determine
   whether the contract has been administered effectively and whether G4S has achieved established
   performance measures. The contract with G4S includes provision of the local guard force for
   Embassy Islamabad, as well as for the three U.S. consulates in Pakistan.

•	 Evaluation of the Antiterrorism Assistance Program in Pakistan. This evaluation will
   determine the degree to which the Antiterrorism Assistance Program in Pakistan, which provides
   training and equipment to police, has achieved its intended outcomes, and assess whether the
   program provides effective oversight of contracts and U.S. Government-furnished equipment.

•	 Performance Evaluation of Management Controls Over Civilian Assistance to Pakistan.
   The evaluation will review the Department of State’s civilian assistance for Pakistan (excluding U.S.
   Agency for International Development programs) to determine whether management controls are
   in place, documented, and operating as intended and to ensure that DOS-administered funds are
   protected from waste, fraud, and diversion.

•	 Evaluation of Emergency Action Plan for Embassy Islamabad. The evaluation will focus on
   Embassy Islamabad’s formulation of a comprehensive Emergency Action Plan, the completeness of
   associated documentation, and general knowledge and preparedness of all mission personnel.

Department of Defense Office of Inspector General

DOD OIG has no completed or ongoing projects related to the civilian assistance program in Pakistan
for FY 2011.




                                                                                                        41
Government Accountability Office

GAO is an independent, nonpartisan agency that oversees federal government spending. GAO’s mission
is to help improve the performance and ensure the accountability of the federal government for the
benefit of the American people. GAO performs oversight at the request of Congress. Additionally,
GAO may be required to research issues mandated by public laws or may undertake work prompted by
broad-based congressional interest under the authority of the Comptroller General. GAO supports
congressional oversight through many avenues, such as auditing agency operations, investigating
allegations of illegal activities, reporting on the efficiency and effectiveness of government programs and
policies, analyzing policy, outlining options for congressional consideration, and issuing legal decisions
and opinions. GAO consults with key members of the accountability community, including the
inspectors general. For example, GAO participates in the Afghanistan-Pakistan Subgroup, which is
chaired by USAID OIG and focuses on oversight of U.S. programs in those two countries.

Work Completed

GAO completed two engagements during the reporting period, July 1–September 30, 2011:

•	 Pakistan Assistance: Relatively Little of the $3 Billion in Requested Assistance Is
   Subject to State’s Certification of Pakistan’s Progress on Nonproliferation and
   Counterterrorism Issues (GAO-11-786R, July 19, 2011). On March 18, 2011, the Secretary
   of State signed a certification attesting that Pakistan continues to cooperate with the United States
   on dismantling nuclear networks; that Pakistan demonstrated a sustained commitment to and made
   significant efforts toward combating terrorism in the preceding fiscal year; and that Pakistan's
   security forces were not subverting the political and judicial processes of Pakistan. As a result of
   DOS certification, the United States can provide security-related assistance to Pakistan in FY 2011.
   DOS originally requested $296 million in FY 2011 in Foreign Military Financing for Pakistan.
   According to discussions with DOS officials and our review of the law and DOS budget requests,
   the Enhanced Partnership Act could limit about $350 million in Foreign Military Financing that DOS
   requested for Pakistan in FY 2012. That is approximately 12 percent of the administration's FY 2012
   request of $3 billion for total foreign assistance to Pakistan. The remainder of about 88 percent, or
   $2,615 million, is not limited.

•	 Combating Terrorism: Pakistan Counterinsurgency Funds Disbursed, but Human
   Rights Vetting Process Can Be Enhanced (GAO-11-860SU, September 20, 2011). The
   United States has provided assistance to build the capabilities of Pakistani security forces combating
   violent extremists, including $1.2 billion appropriated to the DOD Pakistan Counterinsurgency Fund
   and $700 million appropriated to the State Pakistan Counterinsurgency Capability Fund. GAO found
   that as of July 31, 2011, DOD had disbursed 94 percent of $400 million appropriated to the DOD
   fund for FYs 2009 and 2010, and 80 percent of $700 million appropriated to the DOS fund for FYs
   2010 and 2011. Congress appropriated $800 million to the DOD fund for FYs 2011 and 2012.
   According to DOD, it is in the process of planning the allocations for the $800 million, and none of
   the funds have been disbursed. Further, GAO found that all Pakistani security forces that received
   assistance through these funds between July 2010 and March 2011 were vetted for human rights


                                                                                                        42
    violations and approved to receive the assistance. While GAO also found that the vetting process
    has improved through the use of a web-based vetting tracking system, GAO recommended that
    DOD and DOS develop procedures or take other appropriate steps to better ensure the accuracy
    of key data elements entered into the vetting system.

Work Under Way

As of September 30, 2011, GAO had three ongoing engagements concerning Pakistan:

•	 Pakistan’s Anti-Terror Efforts. The Enhanced Partnership with Pakistan Act of 2009 prohibits
   military assistance and arms transfers to Pakistan in FYs 2011–14 unless the President certifies that
   Pakistan is making significant progress in combating terrorist groups—including ceasing support for
   such groups, preventing them from operating in Pakistan, and strengthening counterterrorism and
   anti-money-laundering laws—and its security forces are not subverting the country’s political and
   judicial processes. The act requires GAO to independently assess this certification. This
   engagement will assess the extent to which (1) the amount of State’s funding is contingent on the
   certification, (2) State complied with the mandate requirements, (3) the certification is supported by
   evidence from other U.S. agencies and the views of experts, and (4) State obtained input from other
   agencies to develop the certification and justification memorandum. Expected Completion: GAO
   issued an unclassified report on this engagement in July; GAO will issue a separate, classified product
   evaluating State’s justification for certifying Pakistan’s cooperation and progress in November 2011.

•	 Pakistan Nuclear Networks. The Enhanced Partnership with Pakistan Act of 2009 prohibits
   military assistance and arms transfers to Pakistan in FYs 2011–14 unless the President certifies that
   Pakistan is continuing to cooperate with the United States in efforts to dismantle nuclear supplier
   networks relating to the acquisition of nuclear weapons-related materials, such as providing relevant
   information from or direct access to Pakistani nationals associated with such networks. The act
   requires GAO to independently assess this certification. This engagement will assess the extent to
   which (1) the A.Q. Khan network facilitated the proliferation of sensitive nuclear technology, (2)
   experts identified potential gaps in the U.S. Government’s knowledge of the A.Q. Khan network, (3)
   Pakistan has cooperated with the United States to ensure that the network is no longer active, and
   (4) DOS certification is consistent with experts’ views on Pakistan’s cooperation with U.S. efforts to
   dismantle nuclear networks. Expected Completion: GAO issued an unclassified report on this
   engagement in July; GAO will issue a separate, classified product evaluating State’s justification for
   certifying Pakistan’s cooperation and progress in November 2011.

•	 Pakistan Ammonium Nitrate Smuggling. Ammonium nitrate fertilizer is used to manufacture
   improvised explosive devices in Afghanistan that are a threat to U.S., coalition, and Afghan forces.
   Pakistan is a significant source of the ammonium nitrate used in Afghanistan. GAO has been asked to
   examine (1) U.S. efforts to encourage the Government of Pakistan to implement its plan to address
   the regulation and sale of ammonium nitrate and other percursor materials for improvised explosive
   devices (IEDs), (2) the amount of assistance provided to the Government of Pakistan to counter
   smuggling of ammonium nitrate and other percursor materials for IEDs, and (3) the coordination of
   counter-IED efforts by U.S. Government agencies. GAO expects to complete this engagement in
   Summer 2012.

                                                                                                       43
Completed Oversight Reports as of September 30, 2011

Table 10 lists oversight reports completed since the passage of the Enhanced Partnership with Pakistan
Act, October 15, 2009.

              Table 10. Oversight Reports Completed as of September 30, 2011

    Agency         Report Number      Report Date                           Report Title

FY 2011 Reports
                                                      Combating Terrorism: Pakistan Counterinsurgency
GAO                GAO-11-860SU          9/20/11      Funds Disbursed, but Human Rights Vetting Process
                                                      Can Be Enhanced

                                                      Audit of USAID/Pakistan’s Community Rehabilitation
USAID              G-391-11-006-P        8/29/11
                                                      Infrastructure Support Program

                                                      Pakistan Assistance: Relatively Little of the $3 Billion in
                                                      Requested Assistance Is Subject to State’s Certification
GAO                GAO-11-786R           7/19/11
                                                      of Pakistan’s Progress on Nonproliferation and
                                                      Counterterrorism Issues
                                                      Closeout Financial Audit of the Forman Christian
                                                      College for the Development of a Four-Year Bachelor
USAID              G-391-11-004-R        6/23/11      Degree Program and Strengthening Programs in Basic
                                                      Science and Information Technology, for the Period
                                                      July 1, 2009, to March 31, 2010
                                                      Audit of USAID/Pakistan’s Road Rehabilitation and
USAID              G-391-11-005-P        6/20/11      Reconstruction Activities Under the Quick Impact
                                                      Projects in South Waziristan
                                                      Financial Audit of USAID/Pakistan’s Rupee Trust Fund,
USAID              G-391-11-001-N        5/26/11      for the Period October 1, 2006, to September 30,
                                                      2009
                                                      Financial Audit of the Pakistan Competitiveness
                                                      Support Fund, USAID/Pakistan Grant Agreement No.
USAID              G-391-11-003-R        5/10/11      391-G-00-06-01073-00, Managed by Competitiveness
                                                      Support Fund for the Period July 1, 2009, to June 30,
                                                      2010

                                                      Audit of USAID/Pakistan’s Management of Preaward
USAID              G-391-11-004-P         5/6/11
                                                      Assessments

                                                      Closeout Financial Audit of the Program “Interactive
                                                      Teaching & Learning Project,” USAID/Pakistan
                                                      Cooperative Agreement No. 391-A-00-06-01075-00,
                                                      and Financial Audit of Program “Links to Learning
USAID              G-391-11-002-R         4/8/11      Education
                                                              
 Support to Pakistan,” Sub-Award under
                                                      USAID/Pakistan Cooperative Agreement No. 391-A­
                                                      00-08-01100-00, Managed by Children’s Global
                                                      Network Pakistan Limited, for the Period July 1, 2008,
                                                      to February 26, 2010




                                                                                                              44
      Agency      Report Number    Report Date                        Report Title
                                                 Department of State’s Report to Congress and U.S.
GAO               GAO-11-310R        2/17/11     Oversight of Civilian Assistance to Pakistan Can Be
                                                 Further Enhanced
                                                 Accountability for U.S. Equipment Provided to Pakistan
GAO               GAO-11-156R        2/15/11     Security Forces in the Western Frontier Needs to be
                                                 Improved
                                                 Audit of USAID/Pakistan’s Flood Relief Efforts as
USAID             G-391-11-003-P     1/24/11     Administered by Local Nongovernmental
                                                 Organizations

                                                 The Bureau of Population, Refugees and Migration’s
DOS               MERO-I-11-01         1/11 
                                                 Internally Displaced Persons Program in Pakistan

                                                 Financial Audit of Khushhali Bank Limited Under the
                                                 Developing Non-Bankable Territories for Financial
USAID             G-391-11-001-R     12/30/10
                                                 Services Program (Close-Out Audit), for the Period
                                                 January 1, 2009, to September 30, 2009
                                                 Audit of USAID/Pakistan’s Livelihood Development
USAID             G-391-11-002-P     12/10/10    Program for the Upper Region of the Federally
                                                 Administered Tribal Areas
                                                 Audit of USAID/Pakistan’s Livelihood Development
USAID             G-391-11-001-P     12/10/10    Program for the Lower Region of the Federally
                                                 Administered Tribal Areas
                                                 Financial Audit of the Costs Incurred by Research
                                                 Triangle Institute Under the Education Sector Reform
USAID             G-391-11-001-D     11/8/10     Assistance Program’s School Enhancement Program
                                                 Component, for the Period December 4, 2002, to
                                                 September 30, 2007

FY 2010 Reports

                                                 Audit of USAID/Pakistan’s Family Advancement for Life
USAID             5-391-10-012-P     8/31/10
                                                 and Health Program

                                                 Financial Audit of the Pakistan Competitiveness
                                                 Support Fund, USAID/Pakistan Grant Agreement No.
USAID             G-391-10-001-R      8/4/10     391-G-00-06-01073-00, Managed by the
                                                 Competitiveness Support Fund, for the Period
                                                 February 3, 2006, to June 30, 2009
                                                 Audit of USAID/Pakistan’s Primary Healthcare
USAID             5-391-10-010-P     6/28/10     Revitalization, Integration and Decentralization in
                                                 Earthquake-Affected Areas Project

                                                 Review of USAID’s Internally Displaced Persons
USAID             5-391-10-001-S     6/28/10
                                                 Programs in Pakistan


DOS               ISP-I-10-64          6/10      Inspection of Embassy Islamabad, Pakistan

                                                 Financial Audit of USAID Funds Managed by Forman
USAID             5-391-10-033-R     5/18/10     Christian College, Lahore, for the Period July 1, 2007,
                                                 to June 30, 2009


                                                                                                       45
      Agency   Report Number    Report Date                      Report Title

                                              Financial Audit of USAID Funds Managed by Khushhali
USAID          5-391-10-029-R     4/30/10
                                              Bank for the Year Ended December 31, 2008

                                              Combating Terrorism: Planning and Documentation of
GAO            GAO-10-289         4/15/10     U.S. Development Assistance in Pakistan’s Federally
                                              Administered Tribal Areas Need to Be Improved
                                              Closeout Financial Audit of USAID Funds Managed by
USAID          5-391-10-026-R     3/24/10     Greenstar Social Marketing Pakistan (Guarantee)
                                              Limited, for the Period July 1 to December 31, 2007
                                              The Bureau of International Narcotics and Law
DOS            MERO-A-10-03         3/10      Enforcement Affairs Air Wing Program in Afghanistan
                                              and Pakistan, Performance Audit
                                              Closeout Financial Audit of USAID Funds Managed by
USAID          5-391-10-020-R     2/11/10     Aga Khan University—Examination Board, for the Year
                                              Ended December 31, 2007
                                              Audit of USAID/Pakistan’s Capacity Building for the
USAID          5-391-10-005-P     1/28/10     Federally Administered Tribal Areas Development
                                              Program
                                              Financial Audit of USAID Funds Managed by Children’s
USAID          5-391-10-012-R     12/22/09    Global Network Pakistan Limited, for the Year Ended
                                              June 30, 2008
                                              Status of the Bureau of International Narcotics and
DOS            MERO-A-10-02        12/09      Law Enforcement Affairs Counternarcotics Programs
                                              in Afghanistan, Performance Audit
                                              Effectiveness of Counter Narcotics Programs in
DOS            MERO-A-10-01        11/09
                                              Pakistan, Performance Audit




                                                                                               46
                                                                                   Appendix




Appendix—–Abbreviations 

AED     Academy for Educational Development

BISP    Benazir Income Support Program

DEA     Drug Enforcement Administration

DOC     Department of Commerce

DOD     Department of Defense

DOE     Department of Energy

DOS     Department of State

ECON    Economic Affairs Section (U.S. Embassy Islamabad)

FATA    Federally Administered Tribal Areas

FBI     Federal Bureau of Investigation

FFP     Food for Peace

FY      fiscal year

GAO     Government Accountability Office

GDP     gross domestic product

IED     improvised explosive device

IRI     International Republican Institute

KNCV    Royal Netherlands Tuberculosis Association (Koninklijk Nederlandsche Centrale
        Vereeniging)

MSI     Management Sciences International

NAB     National Accountability Bureau

NADRA   National Database and Registration Authority

NAS     Narcotics Affairs Section (U.S. Embassy Islamabad)

NDI     National Democratic Institute

NDMA    National Disaster Management Authority

                                                                                        47
                                                              Appendix



NGO      nongovernmental organization

OFDA     Office of Foreign Disaster Assistance

OIG      Office of Inspector General

PAS      Public Affairs Section (U.S. Embassy Islamabad)

POL      Political Affairs Section (U.S. Embassy Islamabad)

RSO      Regional Security Office (U.S. Embassy Islamabad)

SRSO     Sindh Rural Support Organization

U.N.     United Nations

UNICEF   United Nations Children’s Fund

USAID    U.S. Agency for International Development

USDA     U.S. Department of Agriculture

USIP     U.S. Institute of Peace

USTDA    U.S. Trade and Development Agency

WAPDA    Water and Power Development Authority

WFP      World Food Programme




                                                                   48
